VISA® CREDIT CARD APPLICATION
□ Manatee □ Panther □ Sea Turtle

□ Visa Platinum Rate or Fresh Start Visa (card type based on your creditworthiness)

$
CREDIT AMOUNT/LIMIT REQUESTED: _________________________________
TYPE OF APPLICATION: □ Individual □ Joint* □ Co-Borrower*
□ Visa Platinum Rewards

□ Manatee □ Panther □ Sea Turtle

Mobile Phone Number

Email Address

Mobile Phone Number

Email Address

How Long at Address?

How Long at Address?

®

CHOOSE CARD: □ Visa Wave

Home Phone Number

Home Phone Number

OCALA BRANCH
2424 SW 17th Road • Ocala, FL
(352) 237-8222

*Joint vs. Co-Borrower: In a joint application, the secondary borrower receives benefit from the loan proceeds. The financial debts, income, and assets of both the primary and secondary borrower will be combined
for prequalification. In a co-borrower application, the secondary borrower’s debts, incomes, and assets are segregated from the primary applicant. Generally speaking, a co-borrower does not receive benefit from the loan
proceeds. A co-borrower is generally useful to increase the odds of getting a loan. A co-borrower should generally have a better credit history and/or is in a better financial standing than the main borrower.

Zip Code

$

Zip Code

Zip Code

$

Zip Code

STARKE BRANCH
2460 Commercial Drive • Starke, FL
(904) 964-1427

OVERLIMIT FEE PROGRAM
□ Opt me in. I would like to opt in to the Overlimit Fee Program. I understand a fee will be charged if transactions that post to my credit card account cause my balance to go over the limit
(see Fee Schedule for current amount). I further understand that Florida Credit Union is not required to accept every transaction as a result of being enrolled in this program. The overlimit fee
will be charged only once per month and will be charged only if my credit card account balance goes overlimit at any time during the month.

FCU Member Number
State
Zip Code

Monthly Housing Payment

City

Date of Birth (MM/DD/YYYY)

□ Opt me out. I prefer to opt out of the Overlimit Fee Program. I understand transactions will be denied if those transactions would cause my balance to go over the limit of my credit card account.

Applicant’s Full Name
City
State

APPLICANT’S INFORMATION

Home Address (no P.O. Box allowed)
City

Social Security Number

Previous Address (if less than two years at current address)
Own/Rent

□ Own □ Rent □ Other

Other Income Source**

FCU Member Number
State
Zip Code

Monthly Housing Payment

City

Date of Birth (MM/DD/YYYY)

Employer’s Phone Number

Issue State
Date of Hire

Expiration Date

$

Occupation/Job Title

Issue Date

Other Income**

State

Driver’s License or State ID Number
Employer’s Name

$

Employer’s Address
Gross Monthly Income
**Alimony, child support and separate maintenance income need not be revealed if you do not wish to have them considered as a basis for repaying this obligation.

Co-Applicant’s Full Name
City
State

CO-APPLICANT’S INFORMATION

Home Address (no P.O. Box allowed)
City

Social Security Number

Previous Address (if less than two years at current address)
Own/Rent

□ Own □ Rent □ Other

Other Income Source**

Employer’s Phone Number

Issue State
Date of Hire

Expiration Date

$

Occupation/Job Title

Issue Date

Other Income**

State

Driver’s License or State ID Number
Employer’s Name

$

Employer’s Address
Gross Monthly Income
**Alimony, child support and separate maintenance income need not be revealed if you do not wish to have them considered as a basis for repaying this obligation.

By signing below, you (1) apply for credit as set forth above, (2) warrant that all statements in this application are true and complete and (3) acknowledge receipt of an agree to all terms, conditions, and disclosures of this
application, including all terms, conditions and disclosures on the reverse side.

RIGHT TO RESTRICT SERVICES AND ACCOUNT ACCESS

You agree we may, except as prohibited by applicable law, restrict, deny, suspend or terminate one or more of our services to you and/or your access to account funds in the event you shall
fail to make timely payment as provided herein or any other loan agreement with us, or shall default under this or any other loan agreement with us. Without in any way limiting the foregoing,
you agree we may, under such circumstances and without limitation, restrict, deny, suspend or terminate your ability to conduct online banking transactions and/or access or withdraw funds
through use of an ATM, a debit card or electronic means. The exercise of rights pursuant to this paragraph shall not be construed as limiting, in any way, our right to pursue other rights and
remedies available under applicable law.

CONSENT TO RECEIVE TELEMARKETING CALLS

By signing below, I also authorize the credit union and persons acting on behalf of the credit union to deliver or cause to be delivered to me, and I consent to receive, advertising and
telemarketing calls and text message at the telephone number(s) provided above, including calls using an automatic telephone dialing system and/or an artificial or prerecorded voice. I
UNDERSTAND AND ACKNOWLEDGE I AM NOT REQUIRED TO SIGN THIS AUTHORIZATION AND CONSENT, OR ENTER INTO THIS AGREEMENT, AS A CONDITION OF PURCHASING
ANY PROPERTY, GOODS OR SERVICES. I acknowledge I may withhold such authorization and consent by striking through this paragraph at the time of the signing of this application or
withdraw such consent by written notice to you at Flordia Credit Union, Attn: Revoke Consent, P.O. Box 5158, Gainesville, FL 32627, by email to revokeconsent@flcu.org, by telephone at
(800) 284-1144 or by any other reasonable means.

All you have to do is fill out the attached application
and drop it by any Florida Credit Union branch or mail
it, postage paid.

Date

Specific Amount to Pay

$

Specific Amount to Pay

$

Federally insured by NCUA

APPLY TODAY

Applicant’s Signature

Date

Account Number
Account Number

Date

4. S
 et up for bi-weekly transfers from your FCU
Checking account.

X

Co-Applicant’s Signature

Payment Address
Payment Address

Co-Applicant’s Signature

X

FCU USE ONLY
Member Number
Teller Number

PURCHASING
POWER IN YOUR
POCKET WITH
THE PROTECTION
OF VISA

(800) 284-1144
flcu.org

3. P
 ay your entire credit balance in full each month.

Will my accounts be closed after my
balances are transferred to my FCU
Business Visa Credit card? No. We will not
automatically close these accounts for you. You may
close these accounts by contacting the issuers after
your balance transfer is completed. Florida Credit
Union accounts are not eligible.

MAILING ADDRESS
P.O. Box 5549 • Gainesville, FL 32627-5549

Important: No advance transaction fee will be
charged. Balance transfer amounts will accrue ﬁnance
charges from the date we send the transfer amount
you requested to the other credit card issuer. Balances
transferred are not subject to a grace period.

2. S
 et dollar amount you choose to pay each month,
as long as it meets the minimum payment.

LAKE CITY BRANCH
586 W. Duval Street • Lake City, FL
(386) 755-4141

1. M
 inimum payment* deducted depending on the
credit balance owed.

MARICAMP BRANCH
10 Bahia Avenue Lane • Ocala, FL
(352) 237-8222

Want more flexibility? You can choose to have your
payment automatically deducted out of your Florida
Credit Union Checking account each month in one of
four ways:

How will my transfer(s) be shown on my new
account? Balance transfers will be posted to your
new account as an advance.

COUNTRY OAKS BRANCH
9680 SW 114th Street • Ocala, FL
(352) 237-8222

Important: Please continue to make payments on
all your existing accounts until you confirm with your
other issuer that the balance transfer payment was
made. FCU is not responsible for any service charges
or late fees which may be assessed on the account(s)
listed for balance transfer.

SILVER SPRINGS ADVANTAGE CENTER
3504 E. Silver Springs Boulevard • Ocala, FL
(352) 237-8222

Best of all, your new FCU Visa Credit Card gives you
flexibility on your monthly payments. You can make
your monthly payment online, by mail or in person at
any Florida Credit Union branch. Also, choose your
payment schedule to be made on the 7th or 21st day
of each month.

How long will it take to process my transfer
request? After your account is opened and you
receive your card(s), the balance transfer(s) will be
processed within 30 days.

NORTH DELAND BRANCH
1735 N. Woodland Boulevard • North DeLand, FL
(386) 738-4717

PAYMENT OPTIONS

HAILE MARKET SQUARE BRANCH
2785 SW 91st Street • Gainesville, FL
(352) 377-4141

How much can I transfer? You may transfer
balances up to your credit line. If your request(s)
exceed the amount of your credit line, FCU will fulfill
your requests in numeric order as listed in your
response, may decline to process one or more
requests, and/or may complete one request in a partial
amount. You will be notified if for any reason we are
not able to process your balance transfer request.

BUTLER PLAZA NORTH BRANCH
2803 SW 42nd Street • Gainesville, FL
(352) 377-4141

VISA
CREDIT
CARDS
Important: Balances cannot be transferred without
complete and accurate information.

13TH STREET ADVANTAGE CENTER
3720 NW 13th Street • Gainesville, FL
(352) 377-4141

Complete the attached Balance Transfer Form.

43RD STREET BRANCH
2831 NW 43rd Street • Gainesville, FL
(352) 377-4141

HOW DO I TRANSFER BALANCES?

Rev. 8/17

*Minimum monthly payment due is 2% of the balance owed or $20.00,
whichever is greater.

X

BALANCE TRANSFER REQUEST
Creditor #1 Name
Creditor #2 Name

Phone

Return application to any FCU branch or mail to P.O. Box 5549, Gainesville, FL 32627.

Date

If this card application is approved, the Applicant hereby requests credit card advances to pay the following specified amounts to the third party credit card accounts specified below. Applicant understands that Florida Credit
Union will not terminate such third party credit card accounts and will not comply with any balance transfer request if the card application is not approved or the balance transfer request would exceed the available card limit
approved by the Credit Union.

Applicant’s Signature

X

MERCHANT USE ONLY
Name
Plan □ 6 □ 12 □ 24 □ 36

All residents of your county can join
Florida Credit Union.

Florida Credit Union’s value-packed Visa program is a
great way to make purchases, obtain cash advances,
or consolidate high-interest rate credit cards. With no
annual fee and low rates, FCU’s Visa Credit Card is
among the best in the market.
FCU’s Visa Credit Cards offer:
•N
 o annual fee on most cards
• Non-variable rate options
• EMV chip technology for increased security
• Credit limits to fit your needs
• A low monthly minimum payment
• Transaction Visa Alerts sent via email and/or text
• Monthly eStatements via FCU’s Online Banking
• 25-day grace period on purchases
• No-fee cash advance options
• Online access to view your account history and
pay balances
• Extra cards for family members
• Emergency card replacement

CHOOSE YOUR CARD DESIGN
Make your card as unique as you are! FCU’s Visa
programs include endangered species cards (sea turtle,
manatee, Florida panther), the Visa Wave rewards card,
and the option to design your own.
Want to make your FCU Visa card one of a kind? You
can customize it in a few simple steps with your own
photo—or choose from hundreds of images online.
Give your card the exclusiveness it deserves!

VISA WAVE CREDIT CARD
Are you stuck with a credit card rewards program that
doesn’t offer the rewards you’re looking for? If so,
FCU’s Visa Wave Credit Card rewards program delivers
perks and benefits few cards can match. The Visa
Wave Credit Card offers all the features of our other Visa
cards, plus:
• Cash back rewards
• Premium rewards points for merchandise, gift cards
and travel

CUREWARDS®

VERIFIED BY VISA

Some FCU Visa credit card programs earn CURewards
points. If you choose one of these programs, there
is added benefit to using your FCU card for all your
purchases. Every time you do, you’ll earn CURewards
points for the dollars you spend. Redeem your points
for quality gifts such as HDTVs, golf clubs, gifts cards,
or even travel.

Verified by Visa:
•P
 revents unauthorized use of your FCU Visa Credit
Card or Debit Card
• Reduces the possibility of identity theft
• Decreases the chances of fraudulent activity on your
FCU Visa Credit Card account

Your monthly statement will report the points you have
accumulated. Also, look for CURewards gift updates in
your monthly Florida Credit Union Visa statements or
go to curewards.com for a complete listing of benefits
and gifts.

Return application to any FCU branch, fax to (352) 374-1906 or mail to
Florida Credit Union, P.O. Box 5549, Gainesville, FL 32627.

Federal law provides important protections to members of the Armed Forces and their dependents relating to extensions of consumer credit. In general, the cost of consumer credit to a
member of the Armed Forces and his or her dependent may not exceed an annual percentage rate of 36 percent. The rate must include, as applicable to the credit transaction or account:
The cost associated with credit insurance premium; fees for ancillary products sold in connection with the credit transaction; any application fee charged (other than certain application fees for
specified credit transactions or accounts); and any participation fee charged (other than certain participation fees for a credit card account).

AS A CONDITION OF CREDIT UNION’S OPENING CREDIT CARD ACCOUNT AND YOUR USE OF THE CARD, THE APPLICANT HEREBY GRANT TO CREDIT UNION A SECURITY
INTEREST IN ALL SHARES, DEPOSITS AND OTHER FUNDS ON DEPOSIT WITH CREDIT UNION IN WHICH YOU HAVE AN OWNERSHIP INTEREST, (other than an IRA account
or an account where this security interest would cause the loss of tax-exempt or tax-deferred status). THE SECURITY INTEREST FOR ALL AMOUNTS OWED TO CREDIT UNION
UNDER THE TERMS OF THE CREDIT CARD ACCOUNT AGREEMENT. IF YOU ARE IN DEFAULT UNDER ANY TERM OF THE CREDIT CARD ACCOUNT, YOUR SHARES, DEPOSITS
AND/OR OTHER FUNDS WITHOUT NOTICE OR DEMAND TO YOU AND TO APPLY SUCH FUNDS TO THE AMOUNTS OWED TO CREDIT UNION.

Certification Instructions. Cross out item 2 above if you have been notified by the IRS that you are currently subject to backup withholding because you have failed to report all interest
and dividends on your tax return. Cross out item 3 and complete a W-8 BEN if you are not a U.S. person. By signing, the Applicant hereby (a) applies for membership in the Florida Credit
Union (“Credit Union”), (b) requests the opening of a Credit Union share/savings account with the Joint Applicant (if any) as a joint owner with rights of survivorship, and (c) requests credit from
Credit Union in the amount/credit limit indicated above, and (d) agrees to all terms, conditions, representations and disclosures of this Application. If a Joint Applicant has signed, the Joint
Applicant hereby (a) requests the opening of a Credit Union share/savings account with the Applicant (if any) as a joint owner with rights of survivorship, (b) requests joint credit with Applicant
from Credit Union in the amount/credit limit indicated above and (c) agrees to all terms, conditions, representations and disclosures of this Credit Application. The person(s) understand and
agree that Credit Union will review this Application and, in Credit Union’s sole discretion, determine whether to (a) extend an advance under an open-end credit plan using the Credit Union’s
Credit and Security Agreement or (b) extend a Credit Union credit card account or (c) deny this Application in Credit Union’s sole discretion. The Florida Credit Union credit card disclosure
information included with this Application only apply to the Credit Union credit card account. If Credit Union decides to extend an advance under an open-end credit plan using the Credit
Union’s Credit and Security Agreement, you will receive and be required to sign the Credit and Security Agreement and any additional documents required by Credit Union. If Credit Union
decides to extend a Credit Union credit card account, (a) you will receive the credit card account agreement before you can receive any advances under the credit card account and (b) you
agree that your signature(s) and your use of the credit card account constitute agreement to the credit card account agreement.

(3) I am a U.S. person (including a U.S. resident alien).

(2) I am not subject to backup withholding because: (a) I am exempt from backup withholding, or (b) I have not been notified by the Internal Revenue Service (IRS) that I am
subject to backup withholding as a result of a failure to report all interest or dividends, or (c) the IRS has notified me that I am no longer subject to backup withholding, and

Visa Wave
Interest Rates and Interest Charges
Annual Percentage
to
Rate (APR) for
when you open your
Purchases
account, based on your
creditworthiness. After
that, your APR will vary
based on the Prime Rate.
APR for Balance
introductory APR
Transfers
for six (6) months.
Thereafter,
to
based on your
creditworthiness. This
APR will vary based on
the Prime Rate.
APR for Cash Advances
Effective August 1, 2017

• Balance transfer opportunity

Protect yourself and your online prurchases with Verified
by Visa. Using a personal password, Verified by Visa
allows participating merchants to verify your identity
before completing an online transaction. It’s safe,
convenient, and best of all, it’s free.

(1) T
 he number shown on this form is my correct taxpayer identification number,

CREDIT REPORT AUTHORIZATION

VISA® CREDIT CARDS

Under penalties of perjury, I certify that:

SEAL ALL SIDES SECURELY WITH TAPE BEFORE MAILING

FLORIDA CREDIT UNION
LOAN PROCESSING DEPARTMENT
PO BOX 5549
GAINESVILLE FL 32627-9985

PURCHASING
POWER IN YOUR
POCKET WITH
THE PROTECTION
OF VISA

TIN CERTIFICATION AND BACKUP WITHHOLDING INFORMATION

®

By signing the application you authorize the credit union to check your employment and credit history and to obtain credit reports in connection with any request for membership or credit,
including any update, increase, renewal, extension or collection of credit you receive. If you request, the credit union will tell you the name and address of any credit bureau from which it
received a credit report on you. The credit union will rely on information you have provided. By signing, you affirm that all information on this document or that has been provided elsewhere
is correct.

VISA
CREDIT
CARDS

Visa Platinum Rewards Visa Platinum Rate

Fresh Start Visa

13.15% 17.9% 10.9% to 17.9% 8.9% to 17.9% 17.9% when you

0%

13.15%
17.9%

Penalty APR and When
It Applies
How to Avoid Paying
Interest on Purchases
Minimum Interest Charge
For Credit Card Tips form
the Consumer Financial
Protection Bureau
Fees
Annual Fee
Transaction Fees
• Balance Transfer
• Cash Advance
• Foreign Transaction
Penalty Fees
• Late Payment
• Over-the-Credit Limit
• Returned Payment

17.9%
None

when you open your
account, based on your
creditworthiness.

when you open your
account, based on your
creditworthiness.

open your account, based
on your creditworthiness.

10.9% 17.9% 8.9% to 17.9% 17.9% when you

to
when you open your
account, based on your
creditworthiness.

when you open your
account, based on your
creditworthiness.

open your account, based
on your creditworthiness.

17.9%

17.9%

17.9%

None

None

None

Your due date is at least 25 days after the close of each billing cycle. We will not charge you interest on
purchases if you pay your entire balance by the due date each month.
If you are charged interest, the charge will be no less than $1.50.
To learn more about factors to consider when applying for or using a credit card, visit the website
of the Consumer Financial Protection Bureau at http://www.consumerfinance.gov.learnmore
None

None

None

$100.00

The greater of $50 or
5% of the amount of
each transfer
The greater of $20 or
3% of the amount of
each cash advance
1% of each transaction in
U.S. Dollars

None

None

None

None

None

None

Up to $35.00
Up to $35.00
Up to $35.00

Up to $35.00
Up to $35.00
Up to $35.00

1% of each transaction in 1% of each transaction in 1% of each transaction in
U.S. Dollars
U.S. Dollars
U.S. Dollars
Up to $35.00
Up to $35.00
Up to $35.00

Up to $35.00
Up to $35.00
Up to $35.00

Other Fees
$25.00
$25.00
$25.00
$25.00
• Card Replacement
$15.00 (Priority Handling) $15.00 (Priority Handling) $15.00 (Priority Handling) $15.00 (Priority Handling)
• Rush Mail
$35.00
$35.00
$35.00
$35.00
• Balance Consolidation/
Convenience Check Stop
Payment
How We Will Calculate Your Balance: We use a method called “average daily balance (including new purchases).” See your Account Agreement for
more details.
Billing Rights: Information on your rights to dispute transaction and how to exercise those right is provided in your account agreement.
The information about the cost of the card described in this application is accurate as of August 2017. This information may have changes after the date. To
find out what may have changed, call us at (800) 284-1144.

